DISTRICT ATTORNEY
KINGS COUNTY
350JAY STREET

BROOKLYN, NY 11201-2908
(718) 250-2000

WWW.BROOKL YNDA.ORG

Eric Gonzalez
District Attorney

April 8, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543 - 0001
Re:

Connell v. New York
No. 20-7210

Dear Mr. Harris:
I represent the respondent in the above-entitled case.
By
letter dated March 23, 2021, this Court informed the respondent
that the Court has requested a response to the petition for
certiorari in this case.
The response to the petition is now
due, unless extended, by April 22, 2021.
Pursuant to
Supreme Court Rule
30.4,
the
respondent
requests that the time within which to respond to the petition
for certiorari be extended 4 6 days, to and including June 7,
2021.
I am requesting this extension to allow sufficient time
to prepare an appropriate response to the issues raised in the
petition.
The petitioner's counsel has stated that they do not
oppose this requested extension.
Thank you for your consideration of this matter.

H~
Jo~ove~

Leonard
Assistant District Attorney
Kings County District Attorney's Office
350 Jay Street
Brooklyn, New York 11201-2908
(718) 250-2511
jobloveL@brooklynDA.org

cc:

Erica Joan Hashimoto, Esq.
Georgetown University Law Center
Appellate Litigation Program
111 F Street, NW
Washington, DC 20001

